 

i

Hank Ramey

24784 5" St.
San Bernardino, CA., 92410
TEL. (909)678.9348

May 24, 2021

Clerk,

Supreme Court of the United States
1 1st St. NE

Washington, DC., 20543

Re: RENEWED APPLICATION FOR STAY PRESENTED To THE HONORABLE NEIL M.
GORSUCH, NEXT JUNIOR JUSTICE.

To the Clerk:

Please present the Renewed Application for Stay to the Honorable Neil M. Gorsuch. Ten copies of the
Original Application (You may throw away nine of them; | was following the Original Rules, adopted in
2019.) are enclosed,

After alll, if the United States Supreme Court UPHELD THE CDG EVICTION MORA TORIUM in the
case of Alabama Assn of Realtors y. Dept. of Health & Human Services,
httos:/Awww.supremecourt gov/opinions/20pdf/20a169_4f15.pdf (2021), by a 5-4 vote, | should receive
an immediate and necessary benefit in its favor, since the Jury Trial should be stayed by July 6, 2021.
Please take appropriate action to defend the rights.

Thank you.

Sincerely,
lenfy Frederic! Jr. ~ Pei ~

Enclosures
PROOF OF SERVICE.
I, Henry Frederick Ramey, Jr, am a resident of the County of Los

Angeles, State of California. I am over the age of 18 years, and I am not a
party to this action. My address is 24784 5" St., San Bernardino, California.
On July 2, 2021, I served the foregoing copies of LETTER RE:
RENEWED APPLICATION FOR STAY PRESENTED TO THE
HONORABLE NEIL M. GORSUCH, NEXT JUNIOR JUSTICE and
MOTION FOR STAY on the interested parties in this action by placing the
following true copies, enclosed in a sealed envelope addressed as follows:

CLERK,

APPELLATE DIVISION OF THE
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN BERNARDINO
8303 HAVEN AV.

RANCHO CUCAMONGA, CA., 91730

MICHAEL C. EARLE

FAST EVICTION SERVICES
474 W. ORANGE SHOW RD.
SAN BERNARDINO, CA., 92408

On the above date, I delivered such papers via United States Post
Office to the addressees at San Bernardino, California.
Under the penalty of perjury, I declare that the foregoing is true and

correct, and that this declaration was executed on July 2, 2021, at San

Declarant TA Bo

Bernardino, California.
